C'OCKLE
2311 Douglas Street CA Ll ega 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

TIMOTHY L. BLIXSETH,
Petitioner,
ws
CREDIT SUISSE,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of January, 2021, send out
from Omaha, NE 2 package(s) containing * copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for: ‘
BECKY S. JAMES SAMUEL A. SCHWARTZ
Counsel of Record ATHANASIOS AGELAKOPOULOS
JAMES & ASSOCIATES SCHWARTZ LAW, PLLC
4500 Park Granada, 601 East Bridger Avenue
Suite 202 Las Vegas, NV 89101
Calabasas, CA 91302 (702) 385-5544
(310) 492-5104 saschwartz@nvfirm.com
bjames@jamesaa.com aagelakopoulos@nvfirm.com

Counsel for Petitioner, Timothy L. Blixseth

Subscribed and sworn to before me this 19th day of January, 2021
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska x hb
I RENEE J. GOSS 7

Notary Public Affiant 40539

My Comm. Exp. September 5, 2023

 

 
Christopher J. Cariello

Direct: 212-506-3778

Orrick Herrington & Sutcliffe LLP
51 West 52nd Street

New York, NY 10019-6142
Ccariello@orrick.com

* 3 copies

Robert Loeb

Direct: 202-339-8475

Orrick, Herrington & Sutcliffe LLP
Columbia Center

1152 15th Street, N.W.
Washington, DC 20005-1706
Rloeb@orrick.com

* 1 copy

Counsel for Respondent
